<html>
<title> - UKRAINE’S LEADERSHIP OF THE OSCE</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                    UKRAINE'S LEADERSHIP OF THE OSCE

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2013

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe
            
            
            
            
            
            
            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
            
            


                   Available via http://www.csce.gov
                   
                   
                   
                   
                            ___________________
                            
                        U.S. GOVERNMENT PUBLISHING OFFICE
95 -504 PDF                      WASHINGTON : 2015       
  
________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                         
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE                               HOUSE

BENJAMIN CARDIN, Maryland,              CHRISTOPHER SMITH, New Jersey,
  Chairman                                Co-Chairman
SHELDON WHITEHOUSE, Rhode Island        JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                   ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire           PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut         MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi               ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia                LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                   New York
                                        MIKE McINTYRE, North Carolina
                                        STEVE COHEN, Tennessee
                                       
                                    
                                     
                                     
                                     
                                     
                                     
                                       
                                     
                                     

                    UKRAINE'S LEADERSHIP OF THE OSCE

                              ----------                              

                              MAY 8, 2013
                             COMMISSIONERS

                                                                   Page
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher Smith, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Stephen Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5
Hon. Michael Burgess, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5

                               WITNESSES

Leonid Kozhara, Minister for Foreign Affairs of Ukraine..........     6

                               APPENDICES

Prepared Statement of Hon. Benjamin Cardin.......................    23
Prepared Statement of Hon. Christopher Smith.....................    24
Prepared Statement of Leonid Kozhara.............................    25
Materials for the Record.........................................    28





 .
                    UKRAINE'S LEADERSHIP OF THE OSCE

                              ----------                              


                              MAY 8, 2013

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 2:05 p.m. to 3:31 p.m. EST in 
Room 562 of the the Dirksen Senate Office Building, Washington, 
D.C., Senator Benjamin Cardin, Chairman of the Commission on 
Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. 
Christopher Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe; Hon. Michael Burgess, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Stephen Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Leonid Kozhara, Minister for Foreign 
Affairs of Ukraine.

  HON. BENJAMIN CARDIN, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cardin. Well, let me welcome Minister Kozhara to our 
commission, the Helsinki Commission. It's a pleasure to have 
you here. Mr. Kozhara is the president, or the chair-in-office, 
of the OSCE. The Helsinki Commission has always hosted the 
chair-in-office, and we thank you, Mr. Minister, for carrying 
out that tradition of coming to the United States, visiting the 
Helsinki Commission during the year of your chair-in-office. We 
know this has been an extremely busy year, with many matters of 
particular concern within the OSCE region, as well as the 
continuation of the agenda that's so important to the member 
states.
    I'm joined by the co-chair of the commission, Commissioner 
Smith, who I think you know very well, and Commissioner 
Burgess, Dr. Burgess, a member from Texas. So we expect to be 
joined by other members of the commission. But let me welcome 
you here to the United States.
    The 1975 Helsinki Final Act and process it initiated, with 
its focus on human rights and fundamental freedom, played an 
important role in the achievement of your country's 
independence. As you know, the Helsinki Commission has had a 
long history of support for Ukraine's independence and 
democratic development. We want Ukraine to succeed.
    I recall my visit to Ukraine, both to Kyiv in early 2005, 
shortly following the Orange Revolution, a time of great 
promise. And I will always remember that first visit and seeing 
just the energy among the people of the Ukraine and how they 
were able to reclaim their country and establish democratic 
institutions that represent the will of the people. I returned 
in 2007, where you hosted the OSCE Parliamentary Assembly's 
annual meeting. And it was one of the more interesting 
Parliamentary Assembly meetings that we've had. I had the 
opportunity during that visit to visit Chernobyl, the site of 
the worst nuclear power plant disaster in history, which for 
nearly three decades has had such a profound impact on the 
Ukraine and her neighbors.
    Like any chair-in-office, Ukraine faces formidable tasks in 
leading this multilateral organization that operates on the 
basis of consensus and includes 57 countries ranging from 
democracy to dictatorship. As I said to you before this hearing 
started, you have to be an incredible diplomat to deal with the 
different types of issues represented by the 57 participating 
states. And we thank you for being willing to step forward to 
serve in that leadership position.
    As chair-in-office, you also must display strong democratic 
credentials in order to be the example for the other states 
that need to do better in their adherence to OSCE obligations. 
It's incumbent upon Ukraine to lead by example in upholding the 
OSCE human rights and rule of law commitments.
    I welcome the recent pardons of former high-ranking 
officials and believe that they are a good first step. I trust 
that you will build on your promise of further judicial and 
electoral reforms. And we hope that last week's European Court 
on Human Rights' ruling that the detention of former Prime 
Minister Yulia Tymoshenko before and during her trial was 
arbitrary and a violation of rights will provide further 
impetus for her release. Mr. Minister, your appearance here 
allows us to hear your reflections on your achievements and 
challenges to date, and how your priorities are being executed 
and the plans for the remainder of your tenure. We all must do 
what we can to insure security and economic cooperation and to 
safeguard not only democracy's progress, but its preservation.
    That is why strengthening the implementation of the human 
dimension commitments by all participating states is so 
important. We're for strengthening all three baskets. All three 
baskets are important. We don't want to weaken any of the 
baskets. The human dimension is extremely important, as is the 
economic, environmental and the security baskets. I had the 
opportunity to chair the second committee of the Parliamentary 
Assembly and worked on the economic and environmental. So all 
three baskets are critically important. The U.S. Helsinki 
Commission has, in recent years, made priorities many of the 
issues that you're dealing with today: the tolerance agenda and 
the establishments of the special representatives. We take 
particular pride in having the first hearings dealing with the 
problems of bigotry.
    The human trafficking issues: Congressman Smith has been a 
world leader on promoting greater accountability, not just by 
the destination countries but by the origin countries and the 
transit countries. We all have responsibility. And we're proud 
of the report that we issued, the TIP Report, which reflects 
how well a country is doing in meeting its international 
commitments against human trafficking.
    In the area of transparency and fighting corruption, the 
commission has taken a very strong position for greater 
transparency, particularly with the extractive industries. And 
as I told you in our private discussion, we are very much 
concerned about strengthening the election monitoring process 
and resolving any conflicts that might exist between ODIHR and 
the Parliamentary Assembly to make sure that there's an 
effective mechanism in place for that critically important role 
that the OSCE plays in monitoring to make sure elections are 
free and fair. And then let me mention we have many dispute 
areas of borders that we want to see resolved in a peaceful 
way. And these conflicts in many cases have been frozen for way 
too long, and we welcome your assessment as to how progress is 
being made on all these fronts. The bottom line is that we want 
to thank you for your leadership in the OSCE, and we wish you 
continued success as you have completed about the one-third 
mark of your chairmanship presidency and have two-thirds to go. 
We want you to know that this commission wants to work with you 
to accomplish our mutual objectives within the OSCE.
    As I explained to you and my colleagues a little bit 
earlier, this is a bicameral body, with House members and 
Senate members. The Senate is in the process right now of two 
votes on a water resource bill. I'm going to be leaving and 
turning the gavel over to Chairman Smith, but I expect to be 
back in about 15 minutes. I know the House has scheduled votes 
around 3:00 this afternoon, so the members may be coming in and 
out during the course of the hearing. But that's not a 
reflection of the importance of the subject, and we certainly 
want to extend to you the greatest courtesies. Thank you.

HON. CHRISTOPHER SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman--Chairman 
Cardin. And, Mr. Foreign Minister, welcome, and your leaders 
from Ukraine who are here with you today. I'd like to join my 
colleagues in officially welcoming you, along with the co-
chair, and of course welcome everyone who's in the room, many 
of whom have labored long and hard for many years on behalf of 
human rights, democracy and freedom in the Ukraine.
    Ukraine has come certainly a long way since I first joined 
the Helsinki Commission 30 years ago. At that time it was a 
great nation suffering under Soviet oppression, and 
independence and freedom seemed like a distant dream. Even in 
those days, however, Ukraine distinguished itself by the number 
of courageous men and women who fought for human rights and 
freedom.
    When the Helsinki monitoring groups were formed in the 
Soviet Union to call on the dictatorship to live up to its 
Helsinki human rights commitments, the Ukrainian monitoring 
group was the largest and the most harshly repressed of them 
all, and in the early 1990s played a leading role in 
establishing democracy in an independent Ukraine. In many ways 
Ukrainians were at the forefront of the struggle to replace the 
old Soviet Union with governments that respected human rights, 
a great honor to Ukraine.
    So it is a special privilege to have you here today, Mr. 
Foreign Minister. And it is a fitting and long-awaited 
distinction for Ukraine to lead the OSCE this year. You and 
your country will face many challenges and opportunities this 
year in your role as chair-in-office, and I look forward to 
hearing, as well as my colleagues, you present your ongoing 
plans for the remaining, as Ben Cardin said, two-thirds of you 
tenure in office at the OSCE.
    Of course it is good news that your priorities as chairman-
in-office include an emphasis on the human dimension issues, 
especially human trafficking, media freedom, tolerance and 
nondiscrimination in democratic elections. As author of the 
Trafficking Victims Protection Act of 2000 and it's 2003 and 
'05 reauthorizations, I especially applaud the leadership, the 
energy and the vision which you have shown in taking on the 
fight to combat the scourge of modern-day slavery, human 
trafficking.
    All of us in the fight against trafficking appreciate the 
special trafficking conference that Ukraine is convening in 
Kyiv this June in order to look closely at overlooked aspects 
of human trafficking and, most importantly, the strengthening, 
the coherence of the OSCE's response, including international 
law enforcement response to trafficking in persons.
    I also want to commend Ukraine for the work it has done 
already to focus attention on the hundreds of thousands of 
trafficking victims who are moved across borders each year who 
could be rescued in transit if airline and other transportation 
personnel were appropriately trained and law enforcement ready 
to intervene. Last month Ambassador Motsyk took the lead in 
spearheading the Airline Ambassadors airline initiative, with 
other ambassadors here in Washington, and other diplomats from 
OSCE countries, as well as with representatives of airlines in 
the United States. This training will create the situational 
awareness in the transportation industry that will make it much 
harder to traffic women.
    At the event at the Ukrainian Embassy--and I was very 
privileged to have been invited and to join you there--
Ambassador Motsyk introduced Nancy Rivard, the founder and 
president of Airline Ambassadors, who demonstrated that 
transportation personnel, once trained, can rescue people in 
flight, of course by contacting law enforcement, so when that 
flight lands they can be protected and the perpetrators 
arrested. They have rescued more than a hundred victims 
already. And of course the Ukrainian government has taken the 
lead in organizing another major trafficking event to be held 
later this summer in Kyiv. So, Mr. Foreign Minister, your 
government's efforts will ensure that thousands of women and 
girls will be rescued from the horrors of trafficking and will 
impede the traffickers so that many other women and children 
will never undergo it. It will have a chilling effect.
    Your commitment to introducing this program in the 57 OSCE 
participating states will ensure that we can rescue thousands 
more. And I know I speak for everyone in this fight in thanking 
you for that extraordinary leadership.
    I also want to mention one of the remaining problems in 
Ukraine, probably the chief symbol of problems touching on 
human rights, and that is our ongoing concern for former Prime 
Minister Yulia Tymoshenko. As Ben Cardin mentioned, you know 
that that is of deep concern to each and every one of us, and I 
do hope that you and your government will do all that it can to 
release her. The recent release of opposition leader Yuri 
Lutsenko was a great step. It sent a message to each and every 
one of us of progress, and we are all very grateful for that.
    So again, Mr. Foreign Minister, Mr. Chairman, thank you for 
being here and we look forward to your testimony. But I'd like 
to now yield to Mr. Cohen for any opening comments that he 
might have.

 HON. STEPHEN COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chairman. And to our guest, I 
appreciate your capacities that you are engaged in, in 
government and in the OSCE. I am concerned about these issues. 
And some of the issues concerning the Ukraine that have come to 
my attention concern some attacks when, I believe it was Mr. 
Kuchma was the president. And at that time there was a 
journalist, Yeliashkevich, who was a party official, and he was 
beaten badly.
    And it's my understanding that the perpetrators of that 
action have not been brought to justice, and that some, I 
understand, in the Ukraine feel that the perpetrators have 
since been identified. There was some issue about the proof, 
but the proof is--I think it's a judgment call.
    There was a journalist killed, Mr. Gongadze. And two others 
at the same time were terribly beaten. I do know, as I 
understand, one of the perpetrators there was sentenced to 
life, but others have not been. And there was involvement 
expected through the government, and they have not been brought 
to justice. And Mr. Podolsky, a journalist who survived a 
beating at the same time. In all those cases, justice does not 
seem to have been carried out to the extent that it might have 
been to bring all the parties responsible to justice. And my 
questions to you will be, what is being done to see that 
justice, even if it goes to the highest levels in your 
government, is meted out so that these atrocious murders and 
beatings, which were political in nature and against the civil 
rights of these individuals, and against the Ukrainian 
government, in essence, will be brought to justice?
    And with that, I look forward to your remarks and 
appreciate your service.
    Mr. Cardin. Thank you, Mr. Cohen. I now yield to Dr. 
Burgess.

HON. MICHAEL BURGESS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Burgess. Well, thank you, Mr. Chairman. And I 
appreciate you having the hearing on Ukraine's leadership of 
the Organization for Security and Cooperation in Europe, indeed 
the world's largest regional security organization.
    The OSCE is well known for promoting human rights, 
democracy and the rule of law. Ukraine, through the leadership 
of the chairman-in-office, has assumed the highest political 
position in the OSCE during an important and challenging time. 
Over the past several years, participating states have tasked 
OSCE with an increasingly long list of issues, from poor 
compliance with the OSCE's democratic commitments by some 
participating states to consistent efforts by Russia and its 
allies to undercut the work on human rights. The OSCE is in 
need of Ukraine's strong leadership and continued commitment to 
doing good work.
    And I believe that Ukraine is capable and rising to the 
challenge one-third of its way through this year. In your 
tenure as chair, the priorities during that time remain 
attainable. Ukraine's focus on human trafficking, media 
freedom, energy security and a new framework for increasing 
work on good governance are worthwhile and achievable through 
steadfast leadership.
    I also want to join with Commissioner Cardin, Chairman 
Cardin and Chairman Smith--and, Chairman, thank you for having 
that hearing in the last Congress on Yulia Tymoshenko, and 
certainly we do need to remain focused on the difficulties that 
she and her family have faced during this prolonged 
incarceration. The Helsinki Commission has a strong working 
relationship with the Ukrainian chairmanship. Foreign Minister 
Kozhara is familiar with the work of the commission from the 
mid-'90s when he was the Ukrainian Embassy's congressional 
liaison here in Washington. Today the commission continues to 
work with the Ukrainian Embassy on many issues. And I thank you 
for being here, and welcome back to Washington.
    Thank you, Mr. Chairman, for holding this hearing. And 
certainly we share common goals and look forward to your 
testimony. Thank you.
    Mr. Cardin. Mr. Foreign Minister, Mr. Chair-in-Office, the 
floor is yours.

    LEONID KOZHARA, MINISTER FOR FOREIGN AFFAIRS OF UKRAINE

    Mr. Kozhara. Thank you. Mr. Chairman, ladies and gentlemen, 
I am extremely pleased and honored to be here with you today as 
a chairperson-in-office of the Organization for Security and 
Cooperation in Europe.
    It's a great responsibility for me personally, and for 
Ukraine, to lead the world's largest regional security 
organization throughout this year. With 57 participating 
states, stretching from Vancouver to Vladivostok, the OSCE is 
uniquely designed as a comprehensive and inclusive platform for 
security dialogue in the Euro-Atlantic and Eurasian area. We 
strongly believe that the OSCE is well suited to address the 
changing security challenges in its area, and that we need to 
continue strengthening its toolbox and improving its coherence.
    Ukraine, as the chairmanship-in-office, is a consistent 
advocate of the OSCE concept of comprehensive cooperative, 
equal and indivisible security. We take the view that lasting 
and sustainable peace and security can only be achieved by 
pursuing a balanced approach across all three dimensions: the 
political and military, the environmental and economic, as well 
as the human dimensions.
    As we approach the 40th anniversary of the Helsinki Final 
Act, the Helsinki-plus-40 process launched in Dublin last year 
should serve in our understanding as a catalyst for re-
energizing the entire organization. A strong engagement from 
the United States will be of a great importance for success of 
this effort.
    Distinguished audience, we are convinced that the human 
dimension belongs to the core of the concept of comprehensive 
security. The Ukrainian chairmanship outlined the over-reaching 
goal of promoting full implementation of the existing human 
dimension commitments by all participating states.
    The fight against trafficking in persons remains one of the 
key issues that are being addressed by the OSCE under the 
Ukrainian chairmanship. It's a plague that many OSCE countries, 
including Ukraine, have been suffering for many years. We need 
to combine all possible instruments to meet this challenge. A 
set of public events has been organized to this end, one of 
them being the international conference on strengthening the 
OSCE response to trafficking in human beings, to be held in 
Kyiv this June. And in this regard, I would like to use this 
opportunity to invite members of the Helsinki Commission to 
attend this important event in my home country and in the city 
of Kyiv. Fostering the freedom of the media is also among our 
priorities in this dimension. A human rights seminar in Warsaw 
is planned to address the media freedom legislation issues. It 
would result in developing relevant recommendations for the 
participating states.
    We will also strive to achieve progress in the areas of 
free movement of people, promotion of tolerance and 
nondiscrimination, freedom of association and assembly, inter-
religious dialogue in promoting freedom of religion or belief, 
as well as democratic elections and election observation. 
Attaching great importance to the promotion of tolerance and 
nondiscrimination through youth education, the chairmanship is 
preparing to host the OSCE youth summit in July-August this 
year in Crimea, Ukraine.
    We also believe in the importance of constructive 
engagement of civil society in achieving the OSCE goals. 
Election monitoring is one of the hallmarks of the OSCE. A 
smooth cooperation between the OSCE Parliamentary Assembly and 
the ODIHR is essential. The OSCE must speak in one voice. It is 
for the benefit of all the OSCE participating states to take 
recommendations made by the international observation missions 
seriously. For instance, following the October 2012 
parliamentary elections in Ukraine, its government approved a 
relevant action plan on priority measures to improve the 
electoral legislation. At the same time, to ensure compliance 
in election observation, it is important to safeguard 
independence, impartiality and professionalism of observers in 
line with the OSCE decisions.
    Ladies and gentlemen, progress in finding a sustainable and 
long-term solution to the protracted conflicts in the OSCE area 
is on top of our agenda. My visit in the capacity of the OSCE 
chairperson-in-office in January was to Moldova. I encouraged 
the leadership in Chisinau and Tiraspol to engage 
constructively into the negotiations process.
    The political will for mutual rapprochement at both banks 
of the Dniester River is a key to finding compromise solutions. 
We hope that the results of current political process in 
Moldova will give a new impetus to further development of 
dialect between Chisinau and Tiraspol, to which Ukraine remains 
ready to contribute. We remain convinced the success of the 
Geneva process is crucial for improving the security and 
humanitarian situation in the conflict areas in Georgia. The 
chairmanship welcomes and supports the efforts of the Minsk 
Group co-chairs directed at promoting dialogue between 
Azerbaijan and Armenia on the settlement of the Nagorno-
Karabakh conflict.
    During my upcoming visit to the South Caucasus on June 
17th-20th, I intend to outline the need for a strict 
implementation of ceasefire and to support the call of the 
Minsk Group co-chairs for a more active engagement in the 
negotiations over the basic principles of the settlement. 
Within the political and military dimension, we aim at 
modernizing the OSCE political military instruments. As a 
strong advocate of nonproliferation, Ukraine attaches special 
importance to enhancing the OSCE's profile in countering the 
threat of proliferation of weapons of mass destruction.
    We appreciate the high level of cooperation between Ukraine 
and the United States on updating the 1994 OSCE principles 
governing nonproliferation. We expect that, in close 
collaboration with the United States and other key 
stakeholders, we will be able to finalize this work prior to 
the key OSCE Ministerial Council in December this year.
    Combating cybercrime remains of paramount importance. To 
this end, Ukraine will contribute to provide support to the 
OSCE open-ended informal working group. We will also work 
together with this chair, the permanent representative of the 
USA to the OSCE, and all participating states to achieve 
progress on the initial set of confidence-building measures to 
reduce the risks on conflicts stemming from the use of 
information and communication technologies.
    Distinguished audience, it would be hardly possible to 
promote a comprehensive and lasting security in the OSCE region 
without properly addressing challenges in the economic and 
environmental sphere. We have proposed to explore whether the 
OSCE could provide an added value and play a role in the 
development of the new trade and transport corridors. The core 
theme here is also increasing stability and security by 
improving the environmental footprint of energy-related 
activities. In this context, we came out with the initiative to 
hold a high-level international conference on energy security 
under the auspices of the OSCE chairmanship in Ashgabat, 
Turkmenistan in October this year. We count on active U.S. 
engagement in implementing this initiative.
    Ladies and gentlemen, the withdrawal of international 
security forces from Afghanistan in 2013 will have considerable 
security implications for the OSCE area. As the OSCE 
chairmanship, we will further explore areas that require 
enhanced interaction with Afghanistan, as well as synergy in 
activities of relevant international actors to effectively 
address challenges arising from transition of responsibility in 
the country. The OSCE has regular dialogue with partners in the 
Middle East. It also promotes and creates projects which can 
offer the best practices of the OSCE, together with lessons 
learned on the challenges of democratic change upon request by 
partners in the region. The number of the requests is growing, 
and the scope of interest is increasing in all three OSCE 
dimensions. We remain fully committed to this process.
    Ladies and gentlemen, now, as I have dwelt enough upon the 
OSCE chairmanship agenda, let me put on the toga of the foreign 
minister of Ukraine and say some words about my country's 
foreign and internal policies. They are of obvious interest to 
this distinguished audience.
    The Ukrainian politics are currently streamlined by two 
processes, perfectly complimentary to each other. The first is 
the ambitious program of internal reforms that the government 
is deliberately implementing under the clear mandate by the 
citizens that have elected it. The second is the process of the 
European integration of Ukraine, and in particular the 
preparation for signing of the association agreement with the 
European Union November this year.
    Ukraine is focused at conducting successful reforms in 
budget, financing, electoral, legislation, rule of law sphere, 
administrative governance, fight against corruption, and public 
policy. There are several reforms currently ongoing in Ukraine, 
but I would like to underline our actions in reforming our 
judiciary system, the adoption of a new criminal procedure 
code, and laws on cornerstones of this judiciary reform.
    At the same time, a special constitutional assembly has 
been established to elaborate approaches of visions for 
reforming the constitution of Ukraine. While reforming the 
judicial system, we followed direct consultation and expert 
advice from the Council of Europe and the Venice Commission. 
Many of the EU's requirements regarding legal reform have 
already been implemented.
    Numerous Ukrainian reforms have been praised 
internationally; for instance, the pension reform was estimated 
as one of the most socially balanced reforms in Europe by the 
World Bank. The World Custom Organization has commended the new 
Custom Code for its compliance with the international and 
European standards. And the Danish Helsinki Committee for Human 
Rights, together with the Council of Europe experts, regards 
the new Criminal Procedure Code as, indeed, one of the best in 
Europe. The Ukrainian leadership is truly committed to doing 
everything in its power to ensure the signing of their 
association agreement with the European Union during the 
Eastern Partnership Summit in Vilnius in November this year.
    The Ukrainian leadership is truly committed to--
nevertheless, in the end, we are determined to implement all 
the declared reforms, not so much to report good news to the 
European Union and other Ukrainian partners, but to ensure 
democratic and pro-European development of Ukraine from within.
    Let me finally say some words about Ukraine's relations 
with Russia. No country can obviously change its geography. 
This means there is no other option for Ukraine but to strive 
to maintain good, neighborly and partnership relations with 
Russia. There is an intensive public debate in Ukraine about 
its relations with the Custom Union of Russia, Belarus and 
Kazakhstan. Let me be absolutely clear on this matter: Russia 
and the Custom Union as a whole are key trade partners of 
Ukraine. Should Ukraine not aim at the most favorable trade 
regime with the Custom Union? Of course it should.
    Just two examples: The European Free Trade Association that 
unites four wealthy European countries has already held eight 
rounds of talks about a free trade area with the Custom Union. 
New Zealand is currently doing exactly the same.
    Ukraine has asked for an observer status in the Custom 
Union. We consider that it would serve Ukraine's interests in 
its trade with the Union and, at the same time, it would 
correspond to Kyiv's commitments within the WTO and with the 
European Union. Ukraine's proposal is currently under 
consideration. And we hope for a prompt positive result.
    Ladies and gentlemen, much speech is one thing; well-timed 
speech is another said the great Sophocles two and a half 
thousand years ago. As I do not believe either in the 
effectiveness of sterile monologues or flamboyant speeches, I 
stand ready in my both current capacities to be engaged with 
you and in an informal yet substantial discussion.
    Thank you very much.
    Mr. Cardin. Well, let me thank you for that very 
comprehensive testimony. I'm going to recognize the House 
members first in the event that there is a vote that takes 
place on the House side. So let me call upon Congressman Smith 
first and then we'll--others may have questions also.
    Mr. Smith. Mr. Chairman, thank you very much. And thank 
you, Mr. Chairman, for your very comprehensive look at the huge 
challenges that you face as the chair in office. You know, your 
trip to Moldova, I'm wondering, whether or not--what the fall 
of the--of the government, if that now portends new challenges 
that weren't even something that you had on the plate when you 
were there.
    But the issue of the Azerbaijan and Armenian casualties in 
Nagorno-Karabakh is obviously a huge issue. They are both 
building up their military capabilities and many of us are very 
concerned where that might all lead to. So we wish you well on 
that trip, especially well, in trying to bring peace to that 
frozen conflict that has been with us for so long. And if you 
might want to elaborate on that, that would be great.
    And if I could also--just a couple of questions as well--
you know, the OSCE does pass a number of very important action 
plans. In 2004, we passed the Berlin Declaration on Anti-
Semitism and all of us were very much involved with that very 
important declaration, the Roma declaration in 2003. But part 
of the problem that we all have--and I think we all suffer from 
this--is that we put on paper something that looks very good 
but then when it comes to implementation time, we all fall far 
short. And that has been the experience on all of these issues. 
So--and I'm just hoping that--if during your chairmanship in 
office, the emphasis can be put on concrete deeds. Words are 
important, but we do need those deeds. Anti-Semitism--I just 
chaired a hearing on combating anti-Semitism just several weeks 
ago--it is bad and it's getting worse and particularly in 
certain parts of Europe and the United States. So I would hope 
that you would--you would all that you could possibly do in 
combating anti-Semitism.
    On trafficking, again, as I said in my opening, 
congratulations for the extraordinary leadership you are 
demonstrating. It is a breath of fresh air. And it will mean 
that women who otherwise would have been exploited and raped 
will evade that horrible cruelty because of your work. We all 
need laws. We pass trafficking laws, you pass them. But 
frankly, we need more public-private and public faith-based 
cooperatives. And I know that as--the one that you've taken up 
with the airlines and the hotels and all will have a--make a 
huge difference.
    You might want to speak to that, if you--if you would. And 
the ambassador, again, is doing a wonderful job on that. If we 
have people who are situationally aware that a trafficking 
situation is occurring right in front of their eyes and have a 
way of getting it to proper law enforcement. It will mitigate 
the instances of trafficking. And it will certainly help rescue 
that woman as she's being trafficked.
    And finally, I would just say, Ms. Tymoshenko, we are very 
concerned about her. I chaired a hearing a year ago. We heard 
from her daughter via Skype, but she made an impassioned plea 
on behalf of her mother. So you know, friends encourage and 
appeal. I make an encouragement and an appeal to you to 
finally, at long last, resolve that case.
    Mr. Kozhara: Thank you, Mr. Co-chairman.
    And yes, indeed, the day after I opened our presidency in 
the OSCE in Vienna, I traveled to Moldova and I visited both 
sides of the Dniester River. I started from Chisinau and next 
day, I traveled to Tiraspol. And for Ukraine, it's quite 
natural to strive for peace and quietness in Moldova, because 
we have 1,000-miles border with Moldova. And I remember 22 
years ago, when the military confrontation happened in Moldova, 
thousands of refugees fled from Moldova to Ukraine. And we 
experienced a terrific humanitarian tragedy that time. That is 
why maybe for no other country but Ukraine, we want peace in 
that region.
    I found all support in Chisinau and I think I also found a 
constructive response in Tiraspol from the local leadership. 
And it seemed that we agreed on three important matters: number 
one, that the negotiation should not stop and go on; number 
two, that the two leaders of Moldova, top negotiators on 
Moldova in Tiraspol, should meet on a regular basis. And we 
suggested the Ukrainian territory as a place to meet for them. 
And number three, negotiations should also contain talks on the 
political status of Transdniestria, because the unclear 
political status is a problem not only for Moldova, but for 
Transdniestria as well.
    With regards Azerbaijan and Armenia--yes, Mr. Co-chairman, 
I agree. The situation is extremely difficult and we are 
watching--the tension is rising and because of the--some 
political statements from both sides. And for Ukraine, all two 
countries, Azerbaijan and Armenia, are very close countries 
from the historical humanitarian people-to-people point of 
view. We have in Ukraine big diasporas of Azeri people and of 
Armenian people. That's why we cannot stand the sight from that 
conflict.
    But I also understand that in the last 20--more than 20 
years, when the war happened between these two countries, so 
many checks and balances were created and my task as I can see 
it, not to break those checks and balances, but to push a 
progressive negotiation.
    So it would be for me much easier to talk to you and to say 
what happened, because the situation is really, really 
complicated. But I think the Ukrainian leadership in the OSCE 
can be the most effective in settling all the problems in that 
area.
    Regarding anti-Semitism--for Ukraine is a mother place for 
many religions and many nations, so it's quite natural to have 
a big Jewish community. And yesterday, when I came to New York 
on my first day in the United States, I met with the Jewish 
community there. And I think Ukraine today is one of the best 
examples of interethnic and interreligious tolerance. And under 
our leadership in the OSCE, we are going to hold several events 
on tolerance and interethnic peace. And one we have already had 
in Kiev, a conference on interreligious communications and I 
was speaking before that conference. And by the way, that 
conference was arranged by the prominent leaders of the 
Ukrainian Jewish community. And another one will be arranged 
under our presidency in Vienna this summer, very soon.
    Human trafficking is also an extremely important question 
and problem for Ukraine. Unfortunately, Co-chairman, Ukraine 
has not a good record in this sphere, because Ukraine as a 
modern country is a young democracy. And we accept that 
sometimes, we lack some democratic procedures, which are quite 
common to developed democracies. That's why our chairmanship 
will be focusing on human trafficking. And in this regard, we 
also are going to hold a few events to combat these 
unacceptable practices and unacceptable activities. The issue 
of Roma rights was also mentioned. And just recently, the 
president of Ukraine signed a special decree which provides for 
protection of Roma ethnic groups in Ukraine.
    And regarding your last point, Mr. Co-chairman, regarding 
Mrs. Tymoshenko, we accept that the former Prime Minister 
Tymoshenko's case is a problem in relations of Ukraine with the 
European Union. And believe me, Mr. Co-Chair, no one is happy 
that she is in jail today. But at the same time, millions of 
people in Ukraine believe that Mrs. Tymoshenko was convicted 
rightfully by the Ukrainian criminal court. Her deliberate 
illegal actions caused a huge damage to the Ukrainian society 
and Ukrainian state and now our national economy.
    Ukraine is losing not less than 6 billion U.S. dollars 
because of the contract promoted by Mrs. Tymoshenko in 2009. 
And that contract, as widely known, was consented from former 
prime minister, without any consent from the government, as the 
law in Ukraine demands. And Mrs. Tymoshenko promoted the 
contract while having strong personal conflicts of interest.
    One is a huge corporate debt of her company, United Energy 
Systems of Ukraine, before the Russia defense ministry, and 
another one she was campaigning for the presidency in Ukraine. 
And it would be even stronger motive for former prime minister 
to consult with the government, as the constitution and the law 
in Ukraine say. She didn't do that. So that's why, while we are 
not so much happy, we want that this issue would be resolved 
soon.
    At the same time, it is extremely important that everything 
related to Mrs. Tymoshenko should be done in full compliance 
with the Ukrainian law. Otherwise, we often hear from the West 
some statements on the so-called selective justice in Ukraine. 
If Tymoshenko would be released, out of legal frameworks in 
Ukraine. So it would be a strong blow on the Ukrainian justice 
system. That's why everything should be done according to the 
law in Ukraine. Thank you very much.
    Mr. Cardin. Before I turn to Congressman Cohen, let me just 
follow-up on that one point with the former Prime Minister 
Tymoshenko. And I couldn't agree with you more; we want to make 
sure that the rule of law is the rule of law and that decisions 
are made based upon a fair application of laws without 
discrimination. And that's a very important principle in a 
democracy.
    But I'd just make an observation--two observations in this 
case. One is that we've seen in too many cases where young 
democracies have done very well in their first and second 
elections, but then we see that the opposition usually ends up 
in jail. Without, again, trying to judge the manner in which 
the Tymoshenko trials were handled, it seems to be following a 
pattern that's not healthy as democracies change by the ballot 
box from one government to another government.
    And this view in regards to the Tymoshenko case is further 
bolstered by the human rights court of Europe in their findings 
suggesting that there was too much politics played in this 
case. Our plea is that this appears to have been politically 
motivated. And that is presenting problems with Europe and it 
does, I think, require some additional attention by the 
Ukrainian legal system. And we hope this will be resolved in a 
satisfactory manner consistent with your laws.
    Congressman Cohen.
    Mr. Cohen. Thank you, Senator. Mr. Chair, I talked about 
three gentlemen who have been the victims of political attacks 
in your country. And while your country has indeed made great 
strides, and I commend you for the strides you've made to 
perfect your justice system, it seems that in these cases 
justice has yet to be carried out. There was a conviction, a 
perpetrator of the assassination of the journalist Gongadze. 
But there were apparently--he has implicated, I believe--or 
President Kuchma--former president Kuchma in ordering that 
attack.
    And there were two other people attacked who were seriously 
hurt. Perpetrators of that act have not been, I believe, 
arrested or brought to justice. The very brutal attack on the 
politician Elyashkevich has not been brought to justice. And he 
did seek and received asylum here because of threats from the 
previous president. He is, I believe, living in Ukraine now, 
but yet that crime has not been satisfactorily resolved, I 
think, to the credit of the Ukrainian government. And the other 
journalist who was attacked, Podolsky, his perpetrators have 
not been brought to justice.
    And so my question to you is, do you know of any actions 
that are being brought or any actions that we can foresee where 
possibly the perpetrators will be brought to justice, and if it 
reaches to the level of the former president, that he would be 
brought to justice? That's the end of the question. There may 
be more.
    Mr. Kozhara. Should I respond?
    Mr. Cohen. Please.
    Mr. Kozhara. Thank you. Thank you, Mr. Cohen. And I 
appreciate your awareness of so many very famous criminal cases 
in Ukraine. And you know that investigation on the late 
journalist, Mr. Gongadze, is going on. And I'm here not in a 
position to comment on the investigation. But what I can say 
here before the commission, that there is a common feeling that 
the investigation is going on and getting close--closing closer 
to the resolution of this very topical case for Ukraine.
    I cannot reply specifically on Mr. Elyashkevich because I 
don't know that case. Mr. Elyashkevich is my former colleague 
by the Ukrainian Rada, by the parliament. And I saw him a few 
months ago in Kiev. And he looks OK. But I don't know 
specifically what happened to him. Mr. Podolsky and--so 
unfortunately I don't have this name in my files, my talking 
points. And you also mentioned Mr. Chornovil. Who died in the 
car accident more than 10 years ago. And he was a leading 
opposition leader in Ukraine.
    But what I can tell the commission for sure, that Ukraine 
is doing a lot in this sphere over the justice reform. And 
three years ago when, after the presidential elections in 
Ukraine, we started immediately with reforming of the judiciary 
and reforming the police and the prosecutor's offices. As a 
result, last year a new criminal proceeding code was put into 
effect. And this code was adopted after a previous old criminal 
proceeding code which was adopted, can you imagine, Mr. Cohen, 
in 1961, when Mr. Khrushchev was in charge from the Kremlin at 
that time.
    So we consider that the adoption of the criminal proceeding 
code is a big step forward for Ukrainian criminal justice 
system. And it's worth mentioning that the new criminal 
proceeding code was elaborated along with the Venice Commission 
of the Council of Europe, a professional body of the Council of 
Europe, where lots of lawyers and professionals were helping us 
deliberate this code. And there is another important reform on 
the parliamentary floor in Ukraine today, the reform of the 
police and the reform of the prosecutor's office.
    And we hope that the Ukrainian Rada, the parliament, which 
was elected at the end of last year, will be effectively 
adopting legislation necessary for Ukraine to comply with the 
requirements of the European Union to sign the association 
agreement with the European Union. And the only problem we have 
here, Mr. Cohen, that the deep reform of the judiciary and of 
the police and of the prosecutor's office is possible only 
within the constitutional reform because to reform completely 
those offices, we need to change the constitution adopted in 
1996.
    So that's why last year President Yanukovych called for the 
Constitutional Assembly. And we all want very much that both 
Ukrainian ruling parties and Ukrainian opposition would take an 
active part in drafting the new constitution. Thank you.
    Mr. Cohen. Mr. Chair--I might not have heard you correctly. 
I believe you said that you recalled serving with Mr. 
Elyashkevich who you saw recently. And are you--did you say you 
were not aware of the fact that he was attacked--brutally 
attacked, and that there was a special commission of the 
Verkhovna Rada of Ukraine, of the 3rd and 4th convocations that 
unanimously came to a conclusion that Ukrainian President 
Kuchma and then-chairman of the security service of Ukraine, 
Derkach are accomplices in attempts on the life of people's 
deputy of Ukraine, Elyashkevich? That this was public--you're 
not aware of this? This is a colleague?
    Mr. Kozhara. May I reply?
    Mr. Cohen. Please, sir, yes.
    Mr. Kozhara: Thank you. I became a member of the Ukrainian 
parliament in 2006. And Mr. Elyashkevich finished his 
parliamentary job in 2002, I think. And, yes, indeed, I heard 
of that case. And as far as I remember, a special parliamentary 
commission was established to investigate that case. 
Unfortunately, Mr. Cohen, I cannot tell you specific points of 
that case because I'm not prepared to testify on that now.
    Mr. Cohen. I appreciate that. And I appreciate----
    Mr. Kozhara. But what I promise that some additional 
information will be addressed to you from--through our embassy 
in Washington, D.C.
    Mr. Cohen. Thank you. That's all we can ask for. And I 
appreciate your assurances that you're improving your systems 
and that you'll get us that information. And one last thing, on 
anti-Semitism, what Mr. Smith asked about was: How is that 
being dealt with throughout the OSCE? You mentioned, I think 
some things in Ukraine that you were doing about anti-Semitism. 
Where is anti-Semitism the most rampant, in your opinion, in 
the OSCE? And what is the OSCE doing to see to it that there is 
some type of action taken in those areas?
    Mr. Kozhara. Thank you, Mr. Cohen. And I cannot say 
official things on the question you asked because I don't have 
them on my talking points. But as a Ukrainian politician and 
representative of the ruling party, I can say that indeed in 
the last years when Europe and other regions of the world 
started to experience hardships of the financial and economic 
crisis, and this is a substance where this is a time when 
radical thoughts and simple slogans are easy to say to the 
people.
    And unfortunately, we are watching today that some radical 
parties in Europe have more popularity in their societies. I 
won't be naming those countries. I think you know all of them. 
And I can say about my country--and in the course of last 
elections, last October, radical nationalistic party has won 
popular vote and got into the Ukrainian parliament. They 
received more than 10 percent of popular vote. And it testifies 
that simple slogans and simple antagonistic ideology during the 
hard times of the financial and economic crisis gained some 
popularity in many societies, unfortunately.
    With regards to Ukraine, anti-Semitic, Nazi or fascist 
ideology is prohibited by the criminal law in Ukraine. And my 
government and my party which is in charge in Ukraine today, we 
are watching very carefully that those radical movements in the 
party do not cross the border of the law. Thank you.
    Mr. Cardin. Let me interrupt at that point and let Dr. 
Burgess have a chance here.
    Mr. Burgess. Thank you. Thank you, Mr. Chairman. I'm up 
against some time constraints, so I'm not going to be terribly 
long. And I do appreciate you being here and sharing this with 
us. I was particularly encouraged to hear you talk about 
cybersecurity and energy security. I serve on another committee 
in the House that deals with that, and I know the importance 
in, certainly, your part of the world.
    Let me just go back to Yulia Tymoshenko for just a moment. 
Congressman Smith, when he held that hearing last--in the last 
Congress and had--through the miracle of some technology, had 
her family members to testify--I'm not a lawyer, I'm a 
physician and what I got from the family was, here is a woman 
who has--it sounded like some pretty acute medical problems, 
some back injuries that needed treatment. And I would just ask 
you if nothing else, if there were a humanitarian basis for a 
release or a change in custody to allow this individual to have 
those injuries treated effectively and properly. And you may 
not be able to comment on that, but that was my takeaway from 
that hearing. It was pretty compelling testimony by your 
family. I realize the rule of law must be adhered to, and 
certainly, again, I'm not a lawyer and I can't advise on that. 
But from a physician's perspective, it seems like this might 
be--from a humanitarian basis, this might be the correct course 
of action. And thank you for your testimony today.
    Mr. Kozhara. Thank you. So maybe you know that the European 
Court on Human Rights ruled over the--Tymoshenko's case just 
recently--on April 30th. And I would cite some comments from 
the European Court of Human Rights ruling. I cite, I quote: 
``On 30th of April 2013, the court delivered the judgment on 
this case in which it declared inadmissible for the reason of 
their obvious groundless complaints raised by Mrs. Tymoshenko 
concerning the conditions of her pretrial detention and alleged 
lack of appropriate medical treatment. Her complaints on 
alleged round-the-clock surveillance in the hospital were 
declared inadmissible, as not all the domestic remedies were 
exhaustive. Mrs. Tymoshenko did not file an appeal on the 
national court decision according to the set her--to the set 
procedure.'' So sorry for reading that. So that's all I can 
comment on the case. Thank you.
    Mr. Cardin. Let me first compliment you for your statement, 
where you say right in the beginning that you are convinced 
that the human dimension belongs to the core of the concept of 
comprehensive security. To me, that's the hallmark of the OSCE, 
the recognition that if we're going to have secure countries, 
the countries need to deal with the human dimension as well as 
the economic dimension. And I applaud you for putting that in 
the spotlight and just urge you, as I said in my opening 
statement, that we strengthen all three baskets. And as we move 
the strength in a basket, we certainly don't do it at the cost 
of particularly the human dimension, but of any of the three 
baskets. We've already commented that we're celebrating the 
10th anniversary of the OSCE Roma Action Plan, and next year we 
will celebrate the 10th anniversary of the Berlin Declaration. 
Congressman Smith and I participated in the Berlin Declaration. 
So we've seen the progress that's been made over the years, and 
we are very proud of the role that the OSCE has played on the 
Roma issue, on anti-Semitism, on xenophobia and anti-Muslim 
activities. As special representatives, we are proud of the 
role that they play. We meet with them regularly and get 
updates. Congressman Cohen asked a question, what's the status 
of anti-Semitism. We've worked with Rabbi Baker to find out 
which countries could benefit from best practices in other 
countries. And OSCE has been in the forefront on that.
    I guess my question to you is, these issues, as Congressman 
Smith points out, are still very much in the need for 
improvement. I have visited Roma communities regularly in 
Europe and know that they are still a very persecuted group and 
need the attention of the OSCE. Anti-Semitism is still too 
prevalent in Europe, and we need to deal with that. The same 
thing is true with anti-Muslim activities and xenophobia.
    So I guess my question to you is, during your chairmanship, 
how do you intend to keep active these areas of protecting 
minority communities such as the Roma population, to deal with 
the broad issues of tolerance so that countries don't become 
complacent, that we continue to showcase best practices in an 
effort to help countries understand what they need to do in 
order to be in compliance not only with the letter but the 
spirit of the OSCE?
    Mr. Kozhara. Thank you, Mr. Chairman. So for centuries, 
Ukraine has been a sort of crossroads for many civilizations, 
and Ukraine is a multinational community today where we have 
many different religious, national, linguistic and other 
communities. And in 20 years with independence, Ukraine has 
adopted a comprehensive legislation on ethnic minorities, 
language minorities. Just recently, as an example, I can say 
that the Verkhovna Radam the parliament of Ukraine, adopted a 
law on languages in Ukraine and to allow--actually, this law is 
a Ukrainian national legislation to implement the European 
Charter on regional languages and national minorities 
languages. And today on the local level, some foreign languages 
are adopted as regional ones. For examples, in the regions--in 
the region of Transcarpathia, on the border with Romania, 
Hungary and Slovakia some local communities adopted Hungarian 
language as a regional language, which allows those national 
minorities to use Hungarian as a second to the official 
Ukrainian language in Ukraine.
    So as I have already mentioned, just recently the president 
of Ukraine adopted a decree to secure the rights of the Roma 
community in Ukraine. And Ukraine for centuries also has been a 
homeland for many Roma people. With regards to anti-Semitism, 
also for centuries Ukrainians, other nationalities and Jews 
lived together in peace. And Kyiv has been recognized as number 
three city in Europe, after Paris and London, by the Jewish 
population, and Ukraine also is a country of many Jewish holy 
places. And annually, the small city of Uman, where the tomb of 
Nachman is, one of the Hassid community clerics. So for 
example, last year we had 37,000 pilgrims, and many of them 
came from the United States.
    Mr. Cardin. I guess my point would be, what you're doing, 
the right thing, you need to showcase to other countries within 
the OSCE that are not doing as much as they should. I think 
sharing best practices, we help countries improve their 
records. And political leadership, to me, is the key. If you 
have political leadership that wants to work on these issues, 
it works. And sharing that with other countries, I think, would 
make additional progress. And I thank you for your commitment 
there.
    I want to get to the issue of election monitoring. You and 
I had a chance to talk about that before the hearing. It is one 
of the most important functions of the OSCE, is monitoring 
elections, to give an objective account as to--whether these 
elections are open, free and fair, and then as you pointed out 
in your testimony about the Ukraine election, giving good 
information on how to improve the election procedures. We had 
an election observation team here in the United States during 
our past election. We know that there were certain 
misunderstandings between the parliamentary assembly and ODHIR. 
I believe very strongly in the role of the parliamentarians in 
the process. I believe very strongly in the ODHIR, in the role 
that it plays in giving us the continuity of election 
monitoring. Can you just give us a brief status report as to 
how you have been able to work as the president of the OSCE to 
marshal our forces within the parliamentary assembly and ODHIR 
to have the most effective election-monitoring capacity?
    Mr. Kozhara. Thank you, Mr. Chairman. Ukraine, in the last 
years, has had many different elections--presidential, local, 
parliamentary elections. And all elections we welcome, OSCE/
ODHIR monitoring missions. For example, during the last 
parliamentary elections, Ukraine had a record number of 
international observers; 4,000 people came to observe elections 
in Ukraine. This is a record number for the entire OSCE area.
    And we also watched a conflict between the OSCE 
parliamentary assembly and the ODHIR office. I'm happy to say, 
Mr. Chairman, that today this conflict has been resolved, and I 
personally put my efforts into the resolution of this conflict. 
I met with the acting president of the OSCE parliamentary 
assembly. I visited the ODHIR office in Warsaw. And as far as I 
understand, today all very sharp issues are not so sharp. But 
at the same time, I think that ODHIR, being a professional 
organization, should care about professionalism of her own 
missions. That's why we think, as presidency in the OSCE, that 
first of all, we need to secure election standards which are 
used by ODHIR missions, and those standards should be common 
for all observation missions provided by OSCE.
    And another comment. I think we are all applauding this 
compromise between the OSCE parliamentary assembly and ODHIR. 
But at the same time, I think it would not be easy to combine 
professional activities by ODHIR missions and political 
activities by OSCE parliamentary assembly, because 
parliamentary assembly consists of members of parliaments 
representing different parties. And, for example, in Europe--
there is a trend that parties from single countries join bigger 
political groups. And it means--for example, if an observation 
mission consists of one political group of parties, and they 
observe a country, for example, where their political opponents 
are in power, it may cause a problem, Mr. Chairman.
    So we need to take balanced approaches in this matter. But 
as I said, we applaud to the compromise between OSCE and ODHIR.
    Mr. Cardin. Well, that's good news. Thank you very much. 
Mr. Smith.
    Mr. Smith. Mr. Foreign Minister, thank you again for your 
testimony. You know, I just would like to ask you, if you 
would, one takeback for your conference in June. Last week we 
had another--yet another hearing on human trafficking, and the 
efficacy of having a phone hotline was underscored by the 
Polaris Project, which does it here in the United States.
    And it would be a great advance in combating human 
trafficking if there were a Europe-wide hotline so that 
wherever a victim might be he or she--and most of the victims 
are women--or someone who sees a trafficking situation could 
call into that main number and help--hopefully a police would 
be on their way to rescue. So it's something that could work. 
It is not very expensive, it's just a matter of having the will 
to do it. And it's something that might be considered by your 
conference.
    Secondly, talking about Mediterranean partners, last 
Congress I chaired three hearings on what is happening in 
Egypt. And one of--the focus of two of them was almost 
exclusively on a barbaric policy--more of a phenomenon, but 
it's certainly a policy, because it was not in any way objected 
to by the government in Egypt, and that is of allowing young 
teenage girls--encouraging it, even, to be abducted, given over 
to Muslim men--they call it ``Islamicizing the womb''--there is 
even a name for it. And at two of those hearings, the former 
deputy of the trafficking unit at the OSCE, Michele Clark, who 
is an adjunct professor now here in Washington at George 
Washington University, testified, and she did much of the 
reporting herself.
    And the numbers are in the thousands of these young Coptic 
Christian girls who are abducted as teenagers, and some even as 
young mothers, and then forced into these marriages. I've been 
trying to get our own administration to raise this issue and to 
do so robustly, with very little success. But it seems to me 
that as chair in office--and you will have, I'm sure, 
opportunities to talk to President Morsi, to raise this 
horrible exploitation of little girls and young women who are 
then forced into a faith, that if they go back to their 
Christian faith, they will be accused of apostasy and maybe 
even killed.
    And meanwhile, they have been trafficked in a terrible, 
terrible situation. And Michele Clark would be available to you 
if you would like or for your embassy to fully brief you. We'll 
provide you with the hearing records, but it is a very serious 
problem. It's not unique to Egypt, but it is going on in a very 
terrible way in Egypt.
    And finally, you may not want to elaborate this, but if you 
could--you talked about--with the security implications of our 
exiting Afghanistan, that the OSCE chairmanship would have to 
further explore areas that require enhanced interaction with 
Afghanistan. I thought that was a very profound statement, 
because there are challenges that I think not enough of us are 
thinking about, and it was reassuring to know that you're 
thinking about it. So if you wanted to speak to that or perhaps 
get back to us later on that.
    Mr. Kozhara. Thank you. Responding to first question, we 
intend to review the existing OSCE plan on trafficking in human 
beings adopted in 2003. The introduction of the all-European 
hotline could be a part of this revised plan, and we'll take a 
note of that. With regards Mediterranean partners, thank you, 
Mr. Co-Chairman, for your comments. And we'll also take a note. 
And this problem is quite new for me, but in our negotiations 
and talks with Egypt on bilateral basis and within the OSCE, we 
can raise also this matter with the Egypt leadership. And 
Ukraine has long-time and deep relations with Egypt. Thank you.
    And yes, on Afghanistan, Ukraine is actively supporting the 
discussion on Afghanistan and, some years ago, Ukraine lost 
3,000 Ukrainians in the war in Afghanistan. So for us, this 
country is quite known, and we have a strong sentiment about 
Afghanistan as well. So we'll be supporting the dialogue on it.
    Mr. Cardin. Mr. Cohen has one last question.
    Mr. Cohen. Thank you, Mr. Chair. The Azerbaijan government 
is advocating downgrading the OSCE mission in Baku to the level 
of project coordinator. It's my understanding that your 
chairmanship team has convened a working group on this matter, 
and I wanted to know what your position was on the Azerbaijani 
proposal, and how can your chairmanship team ensure that the 
OSCE remains actively engaged through the field operations of 
the--at the appropriate level, where support is still needed to 
implement OSCE commitments?
    Mr. Kozhara. Thank you, Mr. Cohen. Yes, indeed, Azerbaijan 
suggest to downgrade the OSCE mission there, and as a member 
state, Azerbaijan has a right to ask for downgrading. So we are 
actively working with Azerbaijan, and I am in constant 
communication with Azerbaijani-Azeri foreign minister, Mr. 
Mammadyarov, on that. We asked Azerbaijan not to block all 
other OSCE activities using this Baku OSCE office problem. We 
also understand that no change is possible this year, but 
again, I stress that it's a sovereign matter of Azerbaijan as 
an OSCE member state to identify the status of the OSCE office 
in Baku. Thank you.
    Mr. Cardin. One last point I want to put into the record 
and get your response on on behalf of Senator Wicker--Senator 
Wicker is the ranking Republican member of the Helsinki 
Commission and has been very actively engaged in the 
international adoption issue. And your commissioner of 
children's rights was recently here in Washington to talk about 
the issues of inter-country adoptions.
    Within the OSCE region, we've had historic issues on tragic 
circumstances on denial of access to adoption. We saw that in 
Romania some years back, and we've addressed that with a 
hearing. More recently, we've had a serious problem with the 
Russian federation on inter-country adoptions, where Russia has 
made certain decisions to stop inter-country adoptions, 
particularly with children with special needs. These are 
children that have very difficult times finding permanent 
placement, and some of these procedures were in the process--I 
believe some of this has been resolved by bilaterals between 
Russia and the United States. My question to you is, this is an 
issue that cries out for some standards on how countries should 
deal with the issue of adoption, and would ask your support to 
see whether we cannot get some activity within OSCE dealing 
with this basic right as to what children should have that are 
being adopted by parents in other countries.
    And I would ask your personal attention to that, and if you 
would have your staff look into whether there is a role for 
OSCE to play here, and particularly getting back to Senator 
Wicker on that point.
    Mr. Kozhara. Thank you, Mr. Chairman. So I am deeply 
convinced that when we are talking on children their future 
should be more important than politics. Yesterday, when I was 
visiting New York, I met with American families who adopted 
Ukrainian children, and it was a very sensitive meeting. And 
Ukraine also has a conflict of law with the American law, 
because according to the Ukrainian law, American families or 
other foreign families which adopted Ukrainian children should 
report to Ukrainian embassies, and Mr. Chairman, unfortunately, 
only 45 percent of the American families which adopted 
Ukrainian children report to the Ukrainian diplomatic 
representations. But we also understand this reality, and as I 
said, the future not of Ukrainian or American or any other--of 
our human children--kids should be more important than any 
politics, and I think it is worth that. Thank you.
    Mr. Cardin. Well, I certainly--we all agree with you on 
that statement. I think you said that very well, and I 
appreciate your candor in answering the questions here and very 
much appreciate the willingness of your country and you 
personally to step forward in leadership within the OSCE during 
these, as I said earlier, very, very challenging times. And I 
look forward to continuing to work with you on behalf of the 
Helsinki Commission of the United States, and we wish you well. 
Thank you very much; the hearing stands adjourned.
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


  Prepared Statement of Hon. Benjamin Cardin, Chairman, Commission on 
                   Security and Cooperation in Europe

    Today, I am pleased to welcome Foreign Minister Kozhara (Ko-ZHA-ra) 
to share his views with us one-third of the way into Ukraine's 2013 
OSCE Chairmanship. A lot of hard work has already been done by your 
Chairmanship, and we appreciate it.
    Mr. Minister, the 1975 Helsinki Final Act and process it initiated, 
with its focus on human rights and fundamental freedoms, played an 
important role in the achievement of your country's independence. And, 
as you know, the Helsinki Commission has a long history of support for 
Ukraine's independence and democratic development. We want Ukraine to 
succeed. I recall my visits to Ukraine, both to Kyiv in early 2005 
shortly following the Orange Revolution, a time of great promise, and 
again in 2007 for the Annual Session of the OSCE Parliamentary 
Assembly. I also had the opportunity to visit Chernobyl, site of the 
worst nuclear power plant disaster in history, which for nearly three 
decades has had such a profound impact on Ukraine and her neighbors.
    Like any Chair-in-Office, Ukraine faces formidable tasks in leading 
this multilateral organization that operates on the basis of consensus, 
and includes 57 countries ranging from democracies to dictatorships. A 
Chair-in-Office must itself display strong democratic credentials if it 
is to succeed in encouraging compliance with OSCE obligations in other 
countries. It is incumbent upon Ukraine to lead by example in upholding 
its OSCE human rights and rule of law commitments. I welcome the recent 
pardons of former high ranking officials and believe that they are a 
good first step. I trust that you will build on your promise of further 
judicial and electoral reforms, and we hope that last week's European 
Court of Human Rights ruling that the detention of former Prime 
Minister Yulia Tymoshenko before and during her trial was arbitrary and 
a violation of her rights will provide further impetus for her release.
    Mr. Minister, your appearance here allows us to hear your 
reflections on your achievements and challenges to date, and to how 
your priorities are being executed and plans for the remainder of your 
tenure. We all must do what we can to ensure security and economic 
cooperation, and to safeguard not only democracy's progress, but its 
preservation. That is why strengthening the implementation of human 
dimension commitments by all participating States is so important.
    I want to thank you for taking on the leadership of the OSCE and 
wish you continued success in your remaining 8 months. I'm hopeful that 
Ukraine's chairmanship of this important organization will enrich both 
Ukraine and the entire OSCE.

 Prepared Statement of Hon. Christopher Smith, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    I'd like to join my colleagues in welcoming Foreign Minister 
Kozhara, the Chair-in-Office of the OSCE for 2013, and, of course, in 
welcoming everyone who is joining us this afternoon.
    Ukraine has come a long way since I first joined the Helsinki 
Commission three decades ago--at that time it was a country suffering 
under Soviet oppression, and its independence seemed like a distant 
dream.
    Even in those days, Ukraine distinguished itself by the number of 
courageous men and women who fought for human rights and freedom. When 
Helsinki Monitoring Groups were formed in the Soviet Union, to call on 
the dictatorship to live up to its Helsinki human rights commitments, 
the Ukrainian Monitoring Group was the largest and the most harshly 
repressed of them all--and in the early 1990s played a leading role in 
establishing democracy in independent Ukraine. In many ways, Ukrainians 
were at the forefront of the struggle to replace the old Soviet Union 
with governments that respected human rights--a great honor to Ukraine.
    So it is a special pleasure to have you here today, Mr. Foreign 
Minister, and it is a fitting and long-awaited distinction for Ukraine 
to lead the OSCE this year. You and your country will face many 
challenges and opportunities this year in your role as Chair-in-Office, 
and I look forward to hearing you present on your on-going work and 
plans.
    Of course it is good news that your priorities as Chairman-in-
Office include an emphasis on human dimension issues, such as human 
trafficking, media freedom, tolerance and non-discrimination and 
democratic elections.
    As author of the Trafficking Victims Protection Act and its 2003 
and 2005 reauthorizations, I especially applaud the energy which you've 
shown in taking on the fight against human trafficking. All of us in 
the fight against trafficking appreciate the special trafficking 
conference that Ukraine is convening in Kyiv this June in order to look 
closely at overlooked aspects of human trafficking, and most 
importantly, to strengthen the coherence of the OSCE response--
including international law enforcement response--to trafficking in 
persons.
    I also want to commend Ukraine for the work it has done already to 
focus attention on the hundreds of thousands of trafficking victims who 
are moved across borders each year and who could be rescued in transit 
if airline and other transportation personnel were appropriately 
trained and law enforcement ready to intervene. Last month, Ambassador 
Motsyk took the lead in sharing the Airline Ambassadors airline 
initiative with other Ambassadors and Diplomats from OSCE countries as 
well as with representatives of airlines in the United States. This 
training will create the situational awareness in the transportation 
industry that will make it much harder to traffic women. At the event 
at the Ukrainian embassy, here in Washington, Ambassador Motsyk 
introduced Nancy Rivard, founder and president of Airline Ambassadors, 
who demonstrated the transportation personnel training that has already 
been used to rescue more than 100 victims. And of course the Ukrainian 
government has taken the lead in organizing another major anti-
trafficking event, to be held later this summer in Kyiv. Mr. Foreign 
Minister, your government's efforts will ensure that thousands of women 
and girls will be rescued from the horrors of trafficking, and will 
impede the traffickers so that many other women and children will never 
undergo it. Your commitment to introducing this program in the 57 OSCE 
participating states will ensure that we can rescue thousands more--I'm 
sure that I speak for everyone active in fighting human trafficking in 
thanking you for that.
    Mr. Foreign Minister, I must also mention one of the problems 
remaining in Ukraine--probably the chief symbol of problems touching on 
human rights, rule-of-law, and democracy, that is, the continued 
imprisonment of former Prime Minister Yulia Tymoshenko.
    This is a serious injustice--and it can be corrected by Prime 
Minister Yanukovych. It was exactly twelve months ago that I chaired a 
hearing of this Commission on Ukraine, at which one of the key 
witnesses was Ms. Tymoshenko's daughter, Yevgeniya, testifying via 
Skype. I welcome the recent release of opposition leader Yuri Lutsenko 
as a positive step, and appreciate the other positive gestures of the 
current government--at the same time I strongly urge the Ukrainian 
government to enhance its Chairmanship of the OSCE by releasing Ms. 
Tymoshenko.

 Prepared Statement of Leonid Kozhara, Minister for Foreign Affairs of 
                                Ukraine

    Excellencies, Ladies and Gentlemen, I am pleased and honoured to be 
here with you today as Chairperson-in-Office of the Organization for 
Security and Co-operation in Europe. It is a great responsibility for 
me personally and for Ukraine to lead the world's largest regional 
security organization throughout this year. With 57 participating 
States stretching from Vancouver to Vladivostok, the OSCE is uniquely 
designed as a comprehensive and an inclusive platform for security 
dialogue in the Euro-Atlantic and Eurasian area. We strongly believe 
that the OSCE is well suited to address the changing security 
challenges in its area and that we need to continue strengthening its 
tool box and improving its coherence.
    Ukraine, as the Chairmanship-in-Office, is a consistent advocate of 
the OSCE concept of comprehensive, cooperative, equal and indivisible 
security. We take the view that lasting and sustainable peace and 
security can only be achieved by pursuing a balanced approach across 
all three dimensions--the political and military, the environmental and 
economic as well as the human dimension. As we approach the 40th 
anniversary of the Helsinki Final Act, the ``Helsinki+40 process'', 
launched in Dublin last year, should serve, in our understanding, as a 
catalyst for re-energizing the Organization. A strong engagement from 
the United States will be of great importance for success of the 
effort.
    Distinguished audience, we are convinced that the Human Dimension 
belongs to the core of the concept of comprehensive security. The 
Ukrainian Chairmanship outlined the overarching goal of promoting full 
implementation of the existing human dimension commitments by all 
participating States. The fight against trafficking in persons remains 
one of the key issues that are being addressed by the OSCE under the 
Ukrainian Chairmanship. It is a plague that many OSCE countries, 
including Ukraine, have been suffering from for many years. We need to 
combine all possible instruments to meet this challenge.
    A set of public events has been organised to this end, one of them 
being the international conference on strengthening of the OSCE 
response to trafficking in human beings, to be held in Kyiv in June. 
Fostering the freedom of the media is also among our priorities in this 
dimension. A Human Rights Seminar in Warsaw is planned to address the 
media freedom legislation issues. It would result in developing 
relevant recommendations for participating States. We will also strive 
to achieve progress in the areas of free movement of people, promotion 
of tolerance and non-discrimination, freedom of association and 
assembly, inter-religious dialogue, in promoting freedom of religion or 
belief, as well as democratic elections and election observation. 
Attaching great importance to the promotion of tolerance and non-
discrimination through youth education, the Chairmanship is preparing 
to host the OSCE Youth Summit in July--August 2013 in Crimea, Ukraine. 
We also believe in the importance of constructive engagement of civil 
society in achieving the OSCE goals. Election monitoring is one of the 
hallmarks of the OSCE. A smooth co-operation between the OSCE 
Parliamentary Assembly and ODIHR is essential. The OSCE must speak in 
one voice. It is for the benefit of all the OSCE participating States 
to take recommendations made by international observation missions 
seriously. For instance, following the October 2012 parliamentary 
elections in Ukraine, its Government approved a relevant Action Plan on 
priority measures to improve the electoral legislation. At the same 
time, to ensure compliance in election observation, it is important to 
safeguard independence, impartiality and professionalism of observers 
in line with OSCE decisions.
    Ladies and Gentlemen. Progress in finding sustainable and long-term 
solution to the protracted conflicts in the OSCE area is on top of our 
agenda. My first visit in the capacity of the OSCE Chairperson-in-
Office in January was to Moldova. I encouraged the leadership in 
Chisinau and Tiraspol to engage constructively into the negotiation 
process. The political will for mutual rapprochement at both banks of 
Dniester is a key to finding compromise solutions. We hope that the 
results of current political process in Moldova will give a new impetus 
to further development of dialogue between Chisinau and Tiraspol, to 
which Ukraine remains ready to contribute. We remain convinced that 
success of the Geneva process is crucial for improving the security and 
humanitarian situation in the conflict areas in Georgia.
    The Chairmanship welcomes and supports the efforts of the Minsk 
Group Co-Chairs directed at promoting dialogue between Azerbaijan and 
Armenia on the settlement of Nagorno-Karabakh conflict. During my 
upcoming visit to the South Caucasus on 17-20 June I intend to 
underline the need for a strict implementation of ceasefire, and to 
support the call of the Minsk Group Co-Chairs for a more active 
engagement in the negotiations over the Basic principles of the 
settlement. Within the political and military dimension, we aim at 
modernizing the OSCE politico-military instruments. As a strong 
advocate of non-proliferation, Ukraine attaches special importance to 
enhancing the OSCE's profile in countering the threat of proliferation 
of weapons of mass destruction. We appreciate the high level of 
cooperation between Ukraine and the United States on updating the 1994 
OSCE Principles Governing Non-Proliferation. We expect that in close 
collaboration with the United States and other key stakeholders we will 
be able to finalize this work prior to the Kyiv OSCE Ministerial 
Council in December this year. Combating cybercrime remains of 
paramount importance. To this end, Ukraine will continue to provide 
support to the OSCE Open-ended Informal Working Group. We will also 
work together with its Chair, the Permanent Representative of the USA 
to the OSCE and all participating States to achieve progress on the 
initial set of confidence building measures to reduce the risks of 
conflicts stemming from the use of information and communication 
technologies.
    Distinguished audience, it would hardly be possible to promote a 
comprehensive and lasting security in the OSCE region without properly 
addressing challenges in the economic and environmental sphere. We have 
proposed to explore whether the OSCE could provide an added value and 
play a role in the development of the new trade and transport 
corridors. The core theme here is also increasing stability and 
security by improving the environmental footprint of energy-related 
activities. In this context we came out with the initiative to hold a 
High Level International Conference on energy security under the 
auspice of the OSCE Chairmanship in Ashgabat in October this year. We 
count on active U.S. engagement in implementing this initiative. Ladies 
and Gentlemen, the withdrawal of international security forces from 
Afghanistan in 2014 will have considerable security implications for 
the OSCE area.
    As the OSCE Chairmanship we will further explore areas that require 
enhanced interaction with Afghanistan, as well as synergy in activities 
of relevant international actors, to effectively address challenges 
arising from transition of responsibility in the country. The OSCE has 
regular dialogue with Partners in the Middle East. It also promotes 
concrete projects which can offer the best practices of the OSCE, 
together with lessons learned, on the challenges of democratic change, 
upon request by Partners in the region. The number of the requests is 
growing, and the scope of interest is increasing in all three OSCE 
dimensions. We remain fully committed to this process.
    Excellencies, Ladies and Gentlemen, Now, as I have dwelt enough 
upon the OSCE Chairmanship agenda, let me put on the toga of the 
Foreign Minister of Ukraine and say some words about my country's 
foreign and internal politics, as they are of obvious interest to this 
distinguished audience. The Ukrainian politics are currently 
streamlined by two processes, perfectly complementary to each other. 
The first is the ambitious programme of internal reforms that the 
Government is deliberately implementing under the clear mandate by the 
citizens that have elected it. The second is the process of the 
European integration of Ukraine and, in particular, the preparation for 
signing of the Association agreement with the European Union in 
November this year. Ukraine is focused at conducting successful reforms 
in budget financing, electoral legislation, rule of law sphere, 
administrative governance, fight against corruption and public policy. 
There are several reforms currently ongoing in Ukraine, but I would 
like to underline our actions in reforming our judiciary system. The 
adoption of a new Criminal Procedure Code and laws on Bar became 
cornerstones of this judiciary reform.
    At the same time a special Constitutional Assembly has been 
established to elaborate approaches and visions for reforming the 
Constitution of Ukraine. While reforming the judicial system, we 
followed direct consultation and expert advice from the Council of 
Europe and the Venice Commission. Many of the EU's requirements 
regarding legal reform have already been implemented. Numerous 
Ukrainian reforms have beenpraised internationally. For instance, the 
pension reform was estimated as one of the most socially balanced 
reforms in Europe by the World Bank. The World Customs Organisation has 
commended the new Customs Code for its compliance with international 
and European standards. And the Danish Helsinki Committee for Human 
Rights together with the Council of Europe experts regards the new 
Criminal Procedure Code as indeed one of the best in Europe.The 
Ukrainian leadership is truly committed to doing everything in its 
power to ensure the signing of the Association Agreement with the 
European Union during the Eastern Partnership Summit in Vilnius in 
November this year. Nevertheless, in the end we are determined to 
implement all the declared reforms not so much to report good news to 
the EU, but to ensure democratic and pro-European development of 
Ukraine from within.
    Let me finally say some words about Ukraine's relations with 
Russia. No country can obviously change its geography. This means 
there's no other option for Ukraine but to strive to maintain good-
neighborly and partnership relations with Russia. There is an intensive 
public debate in Ukraine about its relations with the Customs Union of 
Russia, Belarus and Kazakhstan. Let me be absolutely clear on that. 
Russia and the Customs Union as a whole are key trade partners of 
Ukraine. Should Ukraine not aim at the most favorable trade regime with 
the Customs Union? Of course it should.
    Just two examples: the European Free Trade Association that unites 
four wealthy European countries has already held eight rounds of talks 
about a free trade area with the Customs Union. The New Zealand is 
currently doing exactly the same. Ukraine has asked for an observer 
status in the Customs Union. We consider that it would serve Ukraine's 
interests in its trade with the Union and at the same time would 
correspond to Kiev's commitments within the WTO and with the European 
Union. Ukraine's proposal is currently under consideration and we hope 
for a prompt positive result.
    Ladies and gentlemen! Much speech is one thing, well-timed speech 
is another, said the great Sophocles two and a half thousand years ago 
As I do not believe either in the effectiveness of sterile monologues 
or flamboyant speeches, I stand ready, in my both current capacities, 
to be engaged with you in an informal yet substantial discussion. I 
thank you!

 Senate Congressional Record: Political Imprisonment in Ukraine, Hon. 
 Benjamin Cardin, Chairman, Commission on Security and Cooperation in 
                                 Europe

    Mr. Cardin. Madam President. I would like to address the current 
situation in Ukraine, an important country in the heart of Europe, a 
bellwether for democratic development in the region, and the current 
Chairman-in-Office of the OSCE.
    Let me first welcome the release from prison Sunday of former 
Ukrainian Minister of Internal Affairs and leading opposition figure 
Yuri Lutsenko. Mr. Lutsenko had been convicted on politically motivated 
charges and incarcerated since December 2010. President Yanukovych's 
pardon of Mr. Lutsenko is an encouraging step in the right direction. I 
also welcome the pardon of former Environment Minister Heorhiy 
Filipchuk, who also served as a member of Ms. Tymoshenko's Cabinet and 
had been released last year after his sentence was suspended. By 
pardoning Mr. Lutsenko and Mr. Filipchuk, President Yanukovych is 
indicating not only a willingness to resolve what has been a major 
irritant in Ukraine's relations with the United States and the EU, but 
also a stain on Ukraine's democratic credentials.
    At the same time, I remain deeply concerned about the politically 
motivated imprisonment of Ukrainian opposition figure and former Prime 
Minister Yulia Tymoshenko, who has been incarcerated since August 2011.
    Mrs. Tymoshenko's case stands out as a significant illustration of 
Ukraine's backsliding with respect to human rights, democracy, and the 
rule of law since she was defeated by President Yanukovych in February 
2010. The United States, EU, and Canada have repeatedly expressed 
concerns about the application of selective justice against political 
opponents, their flawed trials, conditions of detention, and the denial 
of their ability to participate in last October's parliamentary 
elections.
    As Chairman of the Helsinki Commission, which has long been 
committed to Ukraine's independence and democratic development, I am 
especially mindful of Ukraine's 2013 OSCE chairmanship. Like any Chair-
in-Office, Ukraine faces formidable tasks in leading a multilateral 
organization that operates on the basis of consensus, which includes 57 
countries ranging from mature democracies to oppressive dictatorships. 
The United States wants Ukraine to succeed, but the reality is that the 
politically motivated imprisonment of Ms. Tymoshenko casts a cloud over 
its chairmanship. A Chair-in-Office must itself have strong democratic 
credentials if it is to succeed in encouraging reform in other 
countries.
    Furthermore, democratic regression in Ukraine has harmed U.S.-
Ukrainian bilateral relations, preventing a traditionally strong 
partnership from realizing its full potential. It has also slowed down 
the process of Ukraine's drawing closer to the EU, which is that 
country's stated foreign policy priority, manifested in the still-
delayed signing of the EU-Ukraine Association Agreement. More than half 
a year has gone by since the unanimous adoption of S. Res. 466, calling 
for the release of Yulia Tymoshenko.
    The Ukrainian authorities now need to follow up on the important 
step they have taken in freeing Yuri Lutsenko. They need to free Ms. 
Tymoshenko and restore her civil and political rights. By demonstrating 
commitment to the rule of law and human rights principles embodied by 
the OSCE, Ukraine will strengthen the credibility of its chairmanship 
and show it is serious about being a full-fledged member of the 
democratic community of nations.
    I strongly urge the Ukrainian government to resolve the case of Ms. 
Tymoshenko.



 
                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
